HHS/OIG, Audit -"Review of Medicare Segment Assets for the Nonqualified Defined-Benefit
Pension Plans for Highmark, Inc.&Predecessors From January 1, 1992, To January 1, 2003,"(A-07-06-00203)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Segment Assets for
the Nonqualified Defined-Benefit Pension Plans for Highmark, Inc. & Predecessors From
January 1, 1992, To January 1, 2003," (A-07-06-00203)
January 20, 2006
Complete
Text of Report is available in PDF format (614 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine if the pension segmentation requirements
of the Medicare contract were followed while updating the nonqualified defined-benefit plan
(NQDBP) Medicare segment assets for: (1) Veritus from January 1, 1994, to January 1, 1998,
(2) Pennsylvania Blue Shield (PBS) from January 1, 1992, to January 1, 1998, and (3)
Highmark from January 1, 1998, to January 1, 2003.  We found that Highmark and its predecessors
did not fully comply with the Medicare contracts pension segmentation requirements while
updating the NQDBP Medicare segment assets.  As a result, Veritus understated the Medicare
segment assets for the NQDBP by $9,476 as of January 1, 1998.  PBS overstated the Medicare
segment assets for the NQDBP by $46,999 as of January 1, 1998.  Highmark understated
Medicare segment assets for the NQDBP for Medicare Part A by $4,057 and overstated Medicare
segment assets for Medicare Part B by $50,351 as of January 1, 2003.
We recommended that: (1) Veritus increase
its NQDBP Medicare segment assets by $9,476, and recognize $13,484 of Medicare segment
assets as of January 1, 1998; (2) PBS decrease its NQDBP Medicare segment assets by $46,999
and recognize $367,210 of Medicare segment assets as of January 1, 1998; and (3)  Highmark
increase its NQDBP Medicare Part A segment assets by $4,057, decrease NQDBP Medicare Part
B segment assets by $50,351, and recognize Medicare segment assets of $227,868 and $409,562,
respectively, as of January 1, 2003.  In comments, Highmark agreed to increase its
Medicare Part A assets and decrease its Part B segment assets, but stated that is is unnecessary
to adjust Veritus or PBS Medicare segment assets as of January 1, 1998.  We maintain
that adjustments to Veritus and PBS are necessary.